TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Management Has Emphasized the Fraud
                  Program, but Opportunities Exist to Further
                                 Improve It



                                      September 18, 2007

                              Reference Number: 2007-30-179




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 18, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Management Has Emphasized the Fraud Program,
                                but Opportunities Exist to Further Improve It (Audit #200630009)

 This report presents the results of our review of the Internal Revenue Service (IRS) National
 Fraud Program. The overall objectives of this review were to determine whether Examination
 function employees are identifying potential fraud cases and referring cases to the Criminal
 Investigation (CI) function when appropriate and to evaluate the effectiveness of the fraud
 technical advisor (advisor) position.1 This audit was conducted as part of the annual audit plan.

 Impact on the Taxpayer
 IRS procedures require that identification and development of potential criminal fraud and civil
 fraud penalty cases be considered during all examinations conducted by the Examination
 function. When initial indicators of fraud2 are identified, the examiner should consult with his or
 her group manager and then contact an advisor as soon as possible for technical guidance and
 advice. Although examiners are generally identifying cases with potential indicators of fraud,
 the case documentation indicated they did not fully develop fraud issues or did not contact an
 advisor, when appropriate, in some cases. Criminal prosecution and civil fraud penalty
 assessment serve as deterrents to noncompliance and enhance voluntary tax compliance.



 1
   Advisors have various responsibilities, such as providing technical and procedural fraud advice in the identification
 and development of potential criminal fraud referrals and civil fraud penalty cases.
 2
   Fraud indicators consist of one or more acts of intentional wrongdoing on the part of the taxpayer with the specific
 purpose of evading tax.
                       Management Has Emphasized the Fraud Program, but
                            Opportunities Exist to Further Improve It




Synopsis
National Fraud Program office and Examination function management have continuously
emphasized the importance of identifying fraud indicators through various efforts, including
training. Examiners are documenting when they consider fraud during an examination and
generally are identifying fraud indicators. However, in 11 (14 percent) of the 77 cases reviewed,
examiners did not adequately identify fraud indicators, fully develop fraud issues, or contact an
advisor when appropriate. In addition, in 15 (26 percent) of 58 cases, the examiners did not
timely discuss the substantial understatement of income with their group managers, as required.
As a result of not properly identifying or fully developing potential fraud issues on six cases, the
IRS may not deter noncompliance and could fail to collect revenue because penalties were not
assessed. In addition, if the IRS does not address tax fraud among those who generally do not
comply, voluntary tax compliance may decrease among those taxpayers who generally do
comply.
Our review of 30 Examination function cases being developed for fraud issues and referred to
advisors showed advisors were sufficiently involved but maintained inconsistent documentation
for the cases. Fraud referral and civil fraud penalty statistics indicate that, overall, the Fraud
Referral Program has helped to increase the number of referrals and civil fraud penalties assessed
since Fiscal Year 2001, when the advisor groups were established. In the Examination function,
the acceptance rate has increased. However, the number of Examination function referrals sent
to and accepted by the CI function has increased only somewhat since Fiscal Year 2001 and had
some upward and downward trends during that time. We believe that, with continued emphasis
by IRS top management and by implementing our recommendations, the IRS could improve the
quality of fraud development and increase the number of Examination function fraud referrals
sent to and accepted by the CI function.

Recommendations
We recommended the Director, Examination, and Director, Fraud/Bank Secrecy Act, reinforce
the requirements to timely contact an advisor when initial indicators of fraud exist, properly
complete the Fraud Development Status (Form 11661) as required and whenever the advisor
participates in a significant discussion during the examination, require examiners to update
Form 11661 by contacting the advisor prior to closing the case, and emphasize the requirement
for examiners to timely discuss with the group manager those cases with substantial amounts of
unreported income. In addition, the Director, Fraud/Bank Secrecy Act, should establish a formal
documentation process that tracks advisor involvement in cases, including requirements to
maintain adequate and consistent records.



                                                                                                   2
                      Management Has Emphasized the Fraud Program, but
                           Opportunities Exist to Further Improve It




Response
The Commissioner, Small Business/Self-Employed Division, agreed with the recommendations
and is taking corrective actions. The Small Business/Self-Employed Division Examination
function emphasized the appropriate coordination with advisors and proper use of Form 11661 in
a joint memorandum issued in June 2006. The Small Business/Self-Employed Division
Examination function and the Director, Fraud/Bank Secrecy Act, will continue to emphasize this
guidance and will issue an additional memorandum to examiners reinforcing managerial
involvement and recordation of discussions. In addition, Small Business/Self-Employed
Division management is in the process of implementing program changes that will enable
tracking of advisor involvement in cases and that will establish minimum recordkeeping
requirements for advisors. On June 1, 2007, the National Fraud Program implemented an
advisor planning tool that enables advisors to maintain adequate and consistent records. Testing
is complete, and training will be conducted to ensure advisors have sufficient skills to fully use
the planning tool. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at 202-622-5894.




                                                                                                 3
                              Management Has Emphasized the Fraud Program, but
                                   Opportunities Exist to Further Improve It




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Has Emphasized the National Fraud Program ........................Page 3
          Examiners Generally Identified Fraud Indicators, but More Could
          Have Been Done to Develop the Fraud Issues in Some Cases .....................Page 3
                    Recommendation 1:..........................................................Page 7

          Fraud Technical Advisors Are Involved in Cases but Should Maintain
          Better Documentation ..................................................................................Page 7
                    Recommendation 2:..........................................................Page 8

          Most Fraud Program Productivity Indicators Have Improved, but
          the Number of Examination Function Referrals Sent to and Accepted
          by the Criminal Investigation Function Has Not Significantly Increased ....Page 8

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ...............................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 18
      Management Has Emphasized the Fraud Program, but
           Opportunities Exist to Further Improve It




                Abbreviations

CI        Criminal Investigation
FY        Fiscal Year
IRS       Internal Revenue Service
                           Management Has Emphasized the Fraud Program, but
                                Opportunities Exist to Further Improve It




                                             Background

Tax fraud is a deliberate, conscious, purposeful violation
of internal revenue laws by taxpayers who do not file         The primary objective of the
                                                              National Fraud Program is to
and properly report their income and expenses. It                  foster voluntary tax
requires both an underpayment and fraudulent intent.            compliance through the
The Internal Revenue Service (IRS) states tax fraud is        recommendation of criminal
one of the most egregious forms of taxpayer                  prosecutions  and/or civil fraud
noncompliance. The primary purpose of the IRS                           penalties.
National Fraud Program is to foster voluntary
compliance through the recommendation of criminal
prosecutions and/or civil fraud penalties against taxpayers who evade the payment of taxes
known to be due and owed.
The identification of potential criminal fraud and civil fraud penalty cases by examiners within
the IRS Examination function is an important part of this process. The Fiscal Years (FY) 2006
and 2007 Examination program letters require that the identification and development of fraud
be considered in all examinations and list potential fraud as one of the Program priorities.
In supporting this priority, the IRS National Fraud Program office is responsible for coordinating
the establishment of fraud strategies, policies, and procedures. This includes coordinating a
Fraud Referral Program with the Examination function to assist examiners in identifying fraud
and developing fraud cases. In FY 2001, the Small Business/Self-Employed Division
established five fraud technical advisor1 (advisor) groups to assist examiners with their criminal
fraud referrals and civil fraud penalty assessments. The advisors play a vital role in the
development of potential fraud cases by providing to the examiners technical and procedural
fraud advice in the identification and development of potential criminal fraud and civil fraud
penalty cases. When indicators of fraud2 exist, the advisor has the opportunity to assist early in
the development of the fraud case to ensure proper evidence and documentation is obtained
before (1) a civil fraud penalty is assessed or (2) a criminal fraud case is referred to the Criminal
Investigation (CI) function.
A civil fraud penalty case may be developed based on facts and circumstances of a civil
examination or for civil settlement of a criminal prosecution case. Civil fraud penalty cases no
longer require a referral to the CI function; the penalty determination is now the shared



1
 In 2004, the IRS changed the title of the fraud referral specialist to fraud technical advisor.
2
 Fraud indicators consist of one or more acts of intentional wrongdoing on the part of the taxpayer with the specific
purpose of evading tax.
                                                                                                             Page 1
                      Management Has Emphasized the Fraud Program, but
                           Opportunities Exist to Further Improve It




                                Results of Review

Management Has Emphasized the National Fraud Program
Small Business/Self-Employed Division management continues to emphasize the National Fraud
Program. For example, in FY 2006, National Fraud Program office management added two
more advisor groups to increase the assistance being provided to the IRS operating divisions,
including the Examination function. In addition, National Fraud Program office management
considers outreach and education a part of the advisors’ duties.
Examination function management continues to emphasize the Fraud Referral Program
to improve the identification and development of potential fraud cases. There has been an
ongoing effort, with assistance from the National Fraud Program office and the CI function, to
refine the Examination function’s fraud process by revising several parts of the fraud training
provided to Examination function field office employees. For example, in FY 2006, the
Examination function revised the fraud training module by adding more participation from the
advisors and the CI function, included fraud case scenarios in the continuous professional
education training, and added a new training module covering the identification of unreported
income. In addition, the Examination function clarified instructions and provided training
reinforcing the fraud referral process. There is also a Fraud Digest, which is provided to all
Small Business/Self-Employed Division employees to highlight the tools and techniques used to
combat fraud.

Examiners Generally Identified Fraud Indicators, but More Could Have
Been Done to Develop the Fraud Issues in Some Cases
IRS procedures require that identification and development of fraud be considered during all
examinations. Once examiners identify fraud indicators, they should take actions to fully
develop the potential fraud issues and involve an advisor in the process. Fraud indicators include
substantial understatement of income; substantial overstatement of deductions with no
explanation; and certain taxpayer conduct such as being deceptive, not providing information,
and providing false documentation. When initial indicators of fraud are identified, the examiner
should consult with his or her group manager and then contact an advisor as soon as possible for
technical guidance and advice. This gives the advisor the opportunity to assist early in the
development of the case and work with the examiner and manager to develop an action plan.
When the examiner, the group manager, and the advisor agree the potential for fraud exists, they



                                                                                           Page 3
                             Management Has Emphasized the Fraud Program, but
                                  Opportunities Exist to Further Improve It



update the case to fraud development status4 by completing the Fraud Development Status
(Form 11661), which is used to document the decision made to develop the case for fraud. Later,
if the examiner determines the potential for fraud does not exist, he or she should contact the
advisor before returning the case to regular examination status.

Examiners made proper decisions regarding fraud indicators on most cases
Review of our judgmental sample of 77 closed Examination function cases showed examiners
are properly documenting the case files when they consider fraud and generally are identifying
fraud indicators.
       •   In 51 cases (66 percent), examiners documented that they considered fraud and properly
           identified there were no fraud indicators.
       •   In 9 cases (12 percent), examiners properly identified fraud indicators and developed the
           issues, but the facts of the cases did not result in fraud determinations.
       •   In 6 cases (8 percent), there did not appear to be fraud present; however, we could not
           make a determination because there was not enough documentation in the case file.
       •   In 11 cases, we identified the following:
                 Examiners either did not adequately identify indicators of fraud or fully develop
                  the fraud issues in six cases.
                 Examiners did not contact an advisor or prepare a Form 11661 when appropriate
                  in nine cases.5
Examiners did not fully develop fraud issues in six cases
In the six cases, case file documentation indicated examiners either did not adequately identify
fraud indicators or fully develop fraud issues.
       •   In two cases, examiners did not identify fraud indicators and the cases could have
           resulted in potential fraud referrals to the CI function. Reasons for potential fraud on
           these two cases included taxpayers failed to keep adequate records, refused to make
           certain records available, and substantially understated income on their tax returns.
       •   In four cases, examiners properly identified fraud indicators but did not document why
           the issues were not pursued. Potential fraud issues not pursued included substantial
           amounts of personal expenditures deducted, concealment of bank accounts, substantial
           overstatement of business expenses, amounts on the tax return not in agreement with
           amounts in books and records, and alterations made on the books and records. Our

4
    A computer database is used to control Examination function cases by various statuses.
5
    The nine cases include four of the six cases mentioned above and five additional cases.
                                                                                                Page 4
                          Management Has Emphasized the Fraud Program, but
                               Opportunities Exist to Further Improve It



         review indicated one case had the potential to be a referral to the CI function and three
         cases could have had the civil fraud penalty assessed.
We believe these six cases occurred because of the increase in new staffing and the loss of
experienced examiners. Since January 2005, the IRS has hired approximately 500 new revenue
agents6 and 140 new tax compliance officers7 and has lost many experienced agents.
Examination function management informed us that fraud cases are more complex and, with the
hiring of new examiners and loss of experienced agents, it is a challenge to work the cases.
Also, in most cases, examiners did not clearly document why the fraud investigation was
dropped.
As a result of not adequately identifying or fully developing potential fraud issues on the six
cases, the IRS may not deter noncompliance and could fail to collect revenue because penalties
were not assessed. These six cases either met the criteria to be referred as potential criminal
cases and could have had the civil fraud penalty assessed at the civil settlement or could have
had only the civil fraud penalty assessed. The aggregate underpayment of taxes for these 6 cases
was approximately $576,000; the estimated civil fraud penalties would be approximately
$432,000 based on the 75 percent civil fraud penalty rate.8
In addition, the IRS states that criminal prosecution and civil fraud penalty assessments serve as
significant deterrents to noncompliance and enhance voluntary tax compliance. Therefore, if the
IRS does not address tax fraud among those who generally do not comply, voluntary tax
compliance may decrease among those taxpayers who generally do comply.

Examiners did not contact an advisor or prepare a Form 11661 when appropriate
in nine cases
In the nine cases, the examiners and group managers did not adequately involve an advisor when
indicators of fraud were present.
    •    In four cases, examiners contacted an advisor and completed Form 11661, as required;
         however, they removed the cases from fraud development status without notifying the
         advisors so the advisors could update the National Fraud Program database of cases.
    •    In two cases, examiners identified strong indicators of fraud and discussed them with an
         advisor; however, they did not complete the required Form 11661, so these cases with
         fraud potential did not show advisor involvement.



6
  Employees in the Examination function that conduct face-to-face examinations of more complex tax returns such
as businesses, partnerships, corporations, and specialty taxes (e.g., excise tax returns).
7
  Employees in the Examination function that primarily conduct examinations of individual taxpayers through
interviews at IRS field offices. The position title was changed in 2002 from tax auditor to tax compliance officer.
8
  See Appendix IV for details.
                                                                                                             Page 5
                      Management Has Emphasized the Fraud Program, but
                           Opportunities Exist to Further Improve It



   •   In three cases, examiners did not contact an advisor for guidance although indicators of
       fraud were present or identified.
By not contacting an advisor, who is a subject-matter expert, when applicable, examiners may
not properly develop a case, thus affecting the outcome of the fraud investigation. For example,
our case review indicated the fraud development was terminated on these nine cases, yet there
was not enough evidence documented in the case files to support the resolutions.
Examination function management informed us one reason an advisor is not contacted early in
the process is because some group managers are very experienced and have enough knowledge
to develop a potential fraud case without involving an advisor. In addition, group managers may
want the examiner to do more work to develop the intent or to determine there are not enough
fraud indicators before they contact the advisor. However, this decreases the effectiveness of the
advisor program, which was established to involve advisors early in the process and to improve
fraud referrals. Also, the information obtained from Form 11661 is input to a National Fraud
Program database, which identifies the cases advisors were involved with and how those cases
were resolved. If Form 11661 is not used properly, the National Fraud Program database will
not provide complete and accurate data.

Examiners did not always discuss cases with managers when there was a
substantial understatement of income
In addition to identifying and developing fraud cases, IRS procedures require the examiner to
discuss the case with the group manager when the examination of reported income on a tax
return reveals an understatement of income meeting a certain dollar criteria in a given year. The
purpose of this discussion is to ensure the group manager can provide advice on the audit
techniques to use and the depth of the examination. In addition, understatement of income is an
indicator of potential fraud.
Our review of 77 cases showed 58 cases met the prescribed dollar criteria. In 15 (26 percent) of
these 58 cases, examiners did not timely discuss the understatement of income with the group
managers.
Reasons for this include examiners did not follow procedures and group managers may not have
been involved early enough in the cases. We did not identify documented managerial
involvement in the cases early in the examination process when advice would be most needed,
although in most of these cases, group managers were involved prior to closing the cases.
If cases with substantial understatement of income are not discussed with the group manager, the
examiner may not consider the expansion of the examination depth or specific audit techniques
that can be used. Understatement of income is one of the most prevalent ways to hide income




                                                                                           Page 6
                          Management Has Emphasized the Fraud Program, but
                               Opportunities Exist to Further Improve It



and could be an indicator of potential fraud by the taxpayer. In addition, a recent study9 showed
the estimated gross tax gap10 was $345 billion and 80 percent is caused by the underreporting of
income or overstating of deductions and credits.

Recommendation
Recommendation 1: The Director, Examination, and Director, Fraud/Bank Secrecy Act,
should reinforce the requirements to timely contact an advisor when initial indicators of fraud
exist, properly complete Form 11661 as required and whenever the advisor participates in a
significant discussion during the examination, require examiners to update Form 11661 by
contacting the advisor prior to closing the case, and emphasize the requirement for examiners to
timely discuss with the group manager those cases with substantial amounts of unreported
income.
        Management’s Response: IRS management agreed with the recommendation. The
        Small Business/Self-Employed Division Examination function emphasized the
        appropriate coordination with advisors and proper use of Form 11661 in a joint
        memorandum issued in June 2006. The Small Business/Self-Employed Division
        Examination function and the Director, Fraud/Bank Secrecy Act, will continue to
        emphasize this guidance and will issue an additional memorandum to examiners
        reinforcing managerial involvement and recordation of discussions, in accordance with
        the Internal Revenue Manual.

Fraud Technical Advisors Are Involved in Cases but Should Maintain
Better Documentation
Advisors have various responsibilities, such as providing technical and procedural fraud advice
to examiners to help identify and develop potential criminal fraud referrals and civil fraud
penalty cases. In addition, advisors assist in the development and delivery of technical fraud
training materials as well as procedural information. This is provided through a variety of
methods such as the Fraud web site, Continuing Education Programs, classroom training, and
newsletters. Also, they collaborate with the CI function to identify and classify potential fraud
leads.
The examiner, group manager, and advisor should jointly develop an action plan as early as
possible to document the fraud indicators identified and the next steps to follow. Our review of a
judgmental sample of 30 examination case files for 2 advisors showed, based on the records kept

9
  A Comprehensive Strategy for Reducing the Tax Gap, United States Department of the Treasury, Office of Tax
Policy (dated September 26, 2006).
10
   The “gross tax gap” is the difference between the amount of tax that taxpayers should pay under the tax law and
the amount they actually pay on time.
                                                                                                            Page 7
                      Management Has Emphasized the Fraud Program, but
                           Opportunities Exist to Further Improve It



by the examiners, the advisors provided adequate input for the cases. However, the
documentation maintained by the advisors in their own files for these 30 cases indicated they did
not keep any type of documentation of an action plan or advice given in 7 cases (23 percent). In
addition, the advisors kept inconsistent records on the 30 cases. For example, in some cases, we
saw a plan of action attached to the Form 11661 summarizing the background of the case and a
list of recommendations provided by the advisor, while in other cases we saw only a note
documenting the recommendations.
National Fraud Program office management informed us that advisors may not keep enough
records because there are no formal written requirements for the types or extent of records to
keep. As we discussed the Program and documentation with managers, National Fraud Program
office management recognized the need for better documentation. Plans for FY 2008 include
developing a procedural handbook for the level and form of documentation to keep. At a
minimum, the advisors should keep a copy of the recommended action plan and advice provided
throughout a case’s fraud development. This process could be used to measure the effectiveness
of advisor involvement and will facilitate timely followup on the cases. In those cases in which
the advisor kept extra records or documentation, we were able to determine that followups were
thorough and timely.

Recommendation
Recommendation 2: The Director, Fraud/Bank Secrecy Act, should establish a formal
documentation process that tracks advisor involvement in cases, including requirements to
maintain adequate and consistent records.
       Management’s Response: IRS management agreed with the recommendation. The
       Small Business/Self-Employed Division is in the process of implementing program
       changes that will enable tracking of advisor involvement in cases and that will establish
       minimum recordkeeping requirements for advisors. On June 1, 2007, the National Fraud
       Program implemented an advisor planning tool that enables advisors to maintain
       adequate and consistent records. Testing is complete, and training will be conducted to
       ensure advisors have sufficient skills to fully use the planning tool.

Most Fraud Program Productivity Indicators Have Improved, but the
Number of Examination Function Referrals Sent to and Accepted by
the Criminal Investigation Function Has Not Significantly Increased
To improve the quality of developing fraud issues and potentially increase the number of fraud
referrals and improve the National Fraud Program overall, over the past 3 years, the IRS
Examination and Collection functions have partnered with the National Fraud Program. One of
the actions taken was to establish five advisor groups whose primary role is to assist in
developing both criminal fraud referrals and civil fraud penalty cases. At the beginning of
                                                                                            Page 8
                         Management Has Emphasized the Fraud Program, but
                              Opportunities Exist to Further Improve It



FY 2007, there were 7 advisor groups with 41 Examination function employees and
33 Collection function employees in the advisor positions.
Figure 1 shows that, since FY 2001 when the advisor position was created, the number of fraud
referrals from all IRS operating divisions has generally increased each year, with the exception
of a couple of slight decreases. In addition, the percentage of referrals accepted increased from
53.8 percent in FY 2001 to 71.5 percent in FY 2006, indicating the quality of referrals has
improved.
                Figure 1: Fraud Referrals From the Operating Divisions

        700                                                                                   100.0%




                                                                           5



                                                                                      3
                                                                         62



                                                                                    60
                                                      9
                                                    55
        600



                                                                 0
                                          6




                                                               53
                                        52




                                                                                              80.0%
                              6
                            48




        500
                   6
                 43




                                                                          68.8%      71.5%
        400                                                                                   60.0%
                                         62.9%       61.2%     58.0%
                  50.8%      53.8%
        300                                                                                   40.0%
        200
                                                                                              20.0%
        100
          0                                                                                   0.0%
                 FY 00      FY 01       FY 02       FY 03      FY 04     FY 05      FY 06

                                    Fraud Referrals Received    % Accepted

      Source: Our prior audit report entitled, Statistical Portrayal of the Criminal Investigation Function’s
      Enforcement Activities From Fiscal Year 2000 Through Fiscal Year 2006 (Reference Number 2007-10-083,
      dated June 6, 2007).

Figure 2 presents the number of Examination function fraud referrals made in FYs 1996 through
2006. The acceptance rate for criminal fraud referrals generally increased since FY 2001 (with
the exception of FY 2004), indicating that implementation of the advisor program has
contributed to the quality of Examination function referrals. The average number of referrals
accepted in FYs 1996 through 2000 was 51.4 percent; the average number of referrals accepted
in FYs 2002 through 2006 (after the advisor program was established in FY 2001) was
64.5 percent, with a high of 73.2 percent in FY 2006.
However, the number of Examination function referrals sent to and accepted by the CI function
increased only somewhat from FY 2001, when the advisor groups were established, and had
some upward and downward trends during that time. The numbers of referrals accepted have
been lower than those in several years prior to implementation of the advisor program. The
average number of referrals accepted in FYs 1996 through 2000 was 397 cases, with a high of


                                                                                                       Page 9
                           Management Has Emphasized the Fraud Program, but
                                Opportunities Exist to Further Improve It



674 in FY 1996; the average number accepted in FYs 2002 through 2006 was 224 cases, with a
high of 269 in FY 2005.
                          Figure 2: Examination Function Fraud Referrals
                   FY        FY      FY        FY       FY       FY        FY       FY        FY       FY       FY
                  1996      1997    1998      1999     2000     2001      2002     2003      2004     2005     2006
     Referrals
                  1,223     1,141    774      402       256      265      367       361      295       384         325
     Received11
     Referrals
                   674      556      380      212       162      150      200       222      181       269         246
     Accepted
     Referrals
                   575      534      432      224       124      109      128       147      130       116         90
     Rejected
     Acceptance
                  54.0%    51.0%    46.8%    48.6%    56.6%     57.9%    61.0%    60.2%     58.2%    69.9%    73.2%
       Rate12
Source: The CI function.

Emphasis by National Fraud Program office (which includes the advisor program) and
Examination function executive management on developing fraud has had a positive effect on
the number of cases resulting in civil fraud penalties. Civil fraud penalty cases no longer require
a referral to the CI function; the penalty determination is now the shared responsibility of the
Examination function and the advisors, with the final decision made by Examination function
management. Statistics obtained from the National Fraud Program showed that, although the
number of Examination function fraud referrals slightly decreased in FY 2006, recommendations
of civil fraud penalties in FY 2006 increased 22 percent over those made in FY 2005.
During FY 2006, the National Fraud Program office implemented various strategies to improve
the success of the Program and further improve the quality of the referrals, including:
      •   Increased staffing and improved the organization to reduce the territory the advisors must
          cover, which allowed them to be more responsive to the needs of their customers.
      •   Improved Intranet presence, which allowed employees to use the Intranet more
          effectively and to answer many of the questions they may have about fraud issues.
      •   Obtained more cooperation from other IRS operating divisions, the CI function, and the
          Department of Justice to improve the fraud process and to ensure the IRS does everything
          to help guide fraud cases to their proper resolution.




11
  This is the number of initial referrals (primary investigations) received from the compliance functions.
12
  The acceptance rate is calculated as follows: Referrals Accepted divided by the sum of Referrals Accepted plus
Referrals Rejected.
                                                                                                         Page 10
                      Management Has Emphasized the Fraud Program, but
                           Opportunities Exist to Further Improve It



In summary, many actions have been taken to improve the National Fraud Program and address
the quality of fraud development, and most productivity indicators have shown improvement.
However, there is still a need to increase the number of referrals accepted from the Examination
function. We believe that, with continued emphasis by IRS top management and by
implementing our recommendations, the IRS could improve the quality of fraud development
and increase the number of Examination function fraud referrals sent to and accepted by the
CI function.




                                                                                         Page 11
          Management Has Emphasized the Fraud Program, but
               Opportunities Exist to Further Improve It



1. Reviewed cases to identify fraud indicators such as admission by the taxpayer of
   substantial omissions, examiner discovers understatement through fully
   documented deposits analysis, doubled set of books, submitting false documents
   for income or expenses, and/or proof of false or altered documents submitted to or
   made available to the examiner.
2. Determined whether the civil fraud penalty was considered if no potential
   criminal fraud action was identified.




                                                                               Page 14
                     Management Has Emphasized the Fraud Program, but
                          Opportunities Exist to Further Improve It



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Doris Cervantes, Lead Auditor
Phyllis Heald, Senior Auditor
Janis Zuika, Senior Auditor
Nina Julius, Auditor




                                                                                        Page 15
                    Management Has Emphasized the Fraud Program, but
                         Opportunities Exist to Further Improve It



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Acting Director, Fraud/Bank Secrecy Act, Small Business/Self-Employed Division SE:S:F/BSA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 16
                          Management Has Emphasized the Fraud Program, but
                               Opportunities Exist to Further Improve It



                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $432,000 in civil penalties (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained the nationwide population of cases that met the following criteria: closed by
examination between March 31, 2005, and March 31, 2006, meeting specified dollar criteria;
small business taxpayer; no indication of CI function activities; and worked by a revenue agent1
or a taxpayer compliance officer2 in an Examination function field office. This resulted in a
population of 5,762 cases, from which we chose a statistically valid sample of 105 cases using a
90 percent confidence level, a +5 percent precision, and an 11 percent estimated error rate based
on prior audit findings. Although the sample size was 105 cases, we included only 77 in our
final results due to varying factors. In effect, this changed our sample to a judgmental sample.
Of the 77 cases reviewed having an aggregate tax liability totaling approximately $10 million,3
6 either met the criteria to be referred as potential criminal fraud cases and could have had the
civil fraud penalty assessed at the civil settlement or could have had only the civil fraud penalty
assessed. The aggregate underpayment of taxes for these 6 cases was approximately $576,000;
the estimated civil fraud penalties for these 6 cases would be approximately $432,000 based on
the 75 percent civil fraud penalty rate. This is an estimate because all of it may not be collected
due to each taxpayer’s right to appeal and possibly have the penalty reduced.




1
  Employees in the Examination function that conduct face-to-face examinations of more complex tax returns such
as businesses, partnerships, corporations, and specialty taxes (e.g., excise tax returns).
2
  Employees in the Examination function that primarily conduct examinations of individual taxpayers through
interviews at IRS field offices. The position title was changed in 2002 from tax auditor to tax compliance officer.
3
  This was the total of the tax liabilities for the 77 cases reviewed.
                                                                                                           Page 17
       Management Has Emphasized the Fraud Program, but
            Opportunities Exist to Further Improve It



                                                 Appendix V

Management’s Response to the Draft Report




                                                          Page 18
Management Has Emphasized the Fraud Program, but
     Opportunities Exist to Further Improve It




                                                   Page 19
Management Has Emphasized the Fraud Program, but
     Opportunities Exist to Further Improve It




                                                   Page 20
